<html>
<title> - NOMINATION OF RAMONA EMILIA ROMERO, OF PENNSYLVANIA TO BE GENERAL COUNSEL, U.S. DEPARTMENT OF AGRICULTURE</title>
<body><pre>[Senate Hearing 111-1029]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1029
 
                  NOMINATION OF RAMONA EMILIA ROMERO, 
                         OF PENNSYLVANIA TO BE 
                            GENERAL COUNSEL, 
                     U.S. DEPARTMENT OF AGRICULTURE 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION


                               __________

                            DECEMBER 9, 2010

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


        Available via the World Wide Web: http://www.fdsys.gov/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

66-277 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



























           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                 BLANCHE L. LINCOLN, Arkansas, Chairman

PATRICK J. LEAHY, Vermont            SAXBY CHAMBLISS, Georgia
TOM HARKIN, Iowa                     RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
DEBBIE STABENOW, Michigan            PAT ROBERTS, Kansas
E. BENJAMIN NELSON, Nebraska         MIKE JOHANNS, Nebraska
SHERROD BROWN, Ohio                  CHARLES GRASSLEY, Iowa
ROBERT CASEY, Jr., Pennsylvania      JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             JOHN CORNYN, Texas
MICHAEL BENNET, Colorado
KIRSTEN GILLIBRAND, New York

               Robert Holifield, Majority Staff Director

                    Jessica L. Williams, Chief Clerk

            Martha Scott Poindexter, Minority Staff Director

                Anne C. Hazlett, Minority Chief Counsel

                                  (ii)























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Nomination of Ramona Emilia Romero, of Pennsylvania to be General 
  Counsel, U.S. Department of Agriculture........................     1

                              ----------                              

                       Thursday, December 9, 2010
                    STATEMENTS PRESENTED BY SENATORS

Lincoln, Hon. Blanche L., U.S. Senator from the State of 
  Arkansas, Chairman, Committee on Agriculture, Nutrition, and 
  Forestry.......................................................     1
Chambliss, Hon. Saxby, U.S. Senator from the State of Georgia....     3
Casey, Hon. Robert, P., Jr., U.S. Senator from the State of 
  Pennsylvania...................................................     2

                                Witness

Romero, Ramona Emilia, of Pennsylvania, to be General Counsel of 
  the U.S. Department of Agriculture.............................     5
                              ----------                              

                                APPENDIX

Prepared Statements:
    Casey, Hon. Robert, P., Jr...................................    16
    Cochran, Hon. Thad...........................................    18
    Romero, Ramona Emilia........................................    21
Document(s) Submitted for the Record:
    Public 5 day letter, Committee questionnaire and Office of 
      Government Ethics Executive Branch Personnel Public 
      Financial Disclosure Report filed by Ramona Emilia Romero..    24
Question and Answer:
Lincoln, Hon. Blanche L.:
    Written questions to Ramona Emilia Romero....................    52
Chambliss, Hon. Saxby:
    Written questions to Ramona Emilia Romero....................    56
Cochran, Hon. Thad:
    Written questions to Ramona Emilia Romero....................    53
Harkin, Hon. Tom:
    Written questions to Ramona Emilia Romero....................    60
Roberts, Hon. Pat:
    Written questions to Ramona Emilia Romero....................    54
Romero, Ramona Emilia:
    Written response to questions from Hon. Blanche L. Lincoln...    52
    Written response to questions from Hon. Saxby Chambliss......    56
    Written response to questions from Hon. Thad Cochran.........    53
    Written response to questions from Hon. Tom Harkin...........    62
    Written response to questions from Hon. Pat Roberts..........    54



                  NOMINATION OF RAMONA EMILIA ROMERO,
                         OF PENNSYLVANIA TO BE
                            GENERAL COUNSEL,
                     U.S. DEPARTMENT OF AGRICULTURE

                              ----------                              


                       Thursday, December 9, 2010

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:41 a.m., Room 
SR328A, Russell Senate Office Building, Hon. Blanche Lincoln, 
Chairman of the Committee, presiding.
    Present or submitting a statement: Senators Lincoln, Casey, 
Chambliss, and Roberts.

  STATEMENT OF HON. BLANCHE L. LINCOLN, U.S. SENATOR FROM THE 
    STATE OF ARKANSAS, CHAIRMAN, COMMITTEE ON AGRICULTURE, 
                    NUTRITION, AND FORESTRY

    Chairman Lincoln. Good morning. I would like to call the 
Committee to order and thanks to everyone for being here today.
    The Committee is meeting to consider the nomination of 
Ramona Emilia Romero to be General Counsel for the United 
States Department of Agriculture.
    And we want to welcome you, Ms. Romero.
    Considering and approving the President's nominees is a 
fundamental constitutional obligation of the Senate. It is a 
responsibility that I certainly take seriously and I know my 
colleagues do as well. And we gladly perform in order to 
confirm qualified and eager nominees so that they can perform 
the vital functions of their respective agencies.
    Ms. Romero, on behalf of the Committee, we do extend you a 
welcome to you and to your family and your friends that are all 
joining you here today. Congratulations on your nomination.
    Ms. Romero. Thank you, Madam Chair.
    Chairman Lincoln. You represent your phenomenal academic, 
professional, and personal success. We want to thank you for 
seeking a nomination which will bring your considerable talent 
to USDA and to public service.
    I would like to recognize Senator Casey, I think, who is 
going to introduce our nominee.
    Senator Casey. Madam Chair, thank you very much. And I am 
honored to have this opportunity and I was indicating before 
that after I introduced the nominee I will have to go and I 
hope you do not mind.
    Chairman Lincoln. No. You will be excused. Do not worry.

 STATEMENT OF HON. ROBERT P. CASEY, JR., U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Casey. I just want to make sure the Chairwoman 
knows where I am headed.
    But I am really honored to do this. I will not read the 
whole statement but I think I know something about how 
important a General Counsel is to any organization including a 
government agency and I do not think we need to review that 
now.
    But I know how vitally important the support that position 
is; and if you review the record and the qualifications and 
experience of our nominee, I think you will come to the same 
conclusion.
    This is a remarkable American story. Ms. Romero immigrated 
to the United States from the Dominican Republic when she was 
11 years old, and just that age reminded me of the story of my 
own family's past. My grandfather--I had never met him; he had 
died before I was born--began working in the coal mines at the 
age of 11.
    Just that experience of coming to a new country and all of 
the challenges, I thought his experience was a challenge. But 
to come to a new land and to face all of the challenges that 
that entails is, indeed, a remarkable story. It is a story that 
only got more exciting and more significant since that time.
    She attended Barnard College at Columbia University where 
she served as the president of student government, received an 
associate alumni fellowship and was awarded the Marian 
Churchill White prize.
    After receiving her degree from Columbia, Ms. Romero went 
to Harvard Law School, served as the associate editor of the 
International Law Journal, director and attorney of the Prison 
Legal Assistance Project, and got her law degree in 1988.
    She has had a variety of legal experience since that time. 
Corporate counsel at Dupont, working on many boards and other 
organizations. One of the other more significant parts of her 
resume was she has held a number of leadership positions within 
the Hispanic National Bar Association, including service as the 
national president.
    So whether it is as lawyer, as an advocate, or as someone 
who has worked very hard to where she is today, we are very 
proud of her service. We are very proud of her commitment to 
public service, and I am grateful that we have this opportunity 
to introduce her and to tell her how much we look forward to 
working with her when she is at the Department of Agriculture 
upon, of course, confirmation.
    With that, Madam Chair, I will ask consent to submit a 
fuller statement to the record.
    Chairman Lincoln. Without objection.
    [The prepared statement of Senator Casey can be found on 
page 16 in the appendix.]
    Senator Casey. Thank you very much.
    Chairman Lincoln. Thank you, Senator Casey.
    The USDA's Office of General Counsel provides legal counsel 
and services to the Secretary of Agriculture. The counsel's 
practice is as broad as the services performed by the agency 
within USDA; and again having seen so much of what USDA does, 
it is a broad range.
    Ms. Romero, if confirmed, you will be ultimately 
responsible for the diverse legal function such as litigation 
and rule-making within issue areas ranging from civil rights to 
natural resources.
    The General Counsel's job is a daunting one but absolutely 
essential to the Department's mission. The General Counsel must 
ensure that the Department acts within the authority granted to 
it by Congress especially when promulgating rules and 
regulations to administer programs such as the controversial 
new GIPSA regulation.
    At this time I will call on our Ranking Member, Senator 
Chambliss, to deliver his opening statement. But before I do, I 
just want to thank him for the friendship and hard work and all 
of the great things we been able to do together and I really 
very much appreciate the blessing you have provided me in my 
journey.
    Thank you, Senator.

STATEMENT OF HON. SAXBY CHAMBLISS, U.S. SENATOR FROM THE STATE 
                           OF GEORGIA

    Senator Chambliss. Well, you are kind.
    Madam Chair, this is, depending on what happens over the 
next couple of weeks, this is likely to be the last formal 
hearing that you will hold as Chairman. I want to
    say on behalf of all of the Committee on both sides of the 
aisle how much we appreciate your leadership on the various 
issues that we have had to deal with over the past, gosh, 
almost two years.
    It has gone by pretty quickly here, and politics being what 
they are obviously you are moving on to a higher calling.
    [Laughter.]
    Senator Chambliss. We are not going to let you leave, 
though, without thanking you not just for your service as 
Chairman of this Committee even though that has certainly been 
a highlight of your career and a highlight of our relationship 
with you, but your passion for agriculture from one end of the 
country to the other has not gone unnoticed.
    You have been a great champion for every farmer and rancher 
in America, and on behalf of all of those folks, we say thank 
you too for your great leadership and your commitment.
    I think here maybe in a day or two we are likely to see the 
signing of the nutrition bill that is going to be a real boost 
to the education system in this country.
    We know what again a passion you have for ensuring that 
children are educated well; and in order to be educated well, 
they have to be fed in a correct manner. And thanks to your 
leadership, we passed a child nutrition bill out of the Senate 
that was taken in total by the House. That is a pretty 
remarkable accomplishment, and something that, as you look back 
on your years in the House and years in the Senate, I think, 
will certainly rate right at the top of your accomplishments.
    It has been a privilege for me to have had the opportunity 
to work with you, both in our days in the House and now in the 
Senate. We worked on Ag issues and we worked on tax issues and 
any other number of matters.
    And you have been a champion for Americans, and I am going 
to miss you.
    Chairman Lincoln. Thank you.
    Senator Chambliss. I also want to say to your staff what a 
great job they have done in working with my staff, working with 
members on this side of the aisle particularly. It has been an 
open door. Your staff director, Robert Holifield, what a good 
young man he is.
    Chairman Lincoln. We think so too.
    Senator Chambliss. What a bright guy he is and what a great 
guy to work with. And whether it is he and Martha Scott 
throwing towels at each other or rocks or whatever they throw 
at each other from time to time, we have just had a great 
working relationship at both the staff and member level under 
your leadership.
    So for all of that I thank you.
    Chairman Lincoln. It has been a glorious journey, and I 
have to say with all kinds of joys and blessings along the way. 
And you two men are at the top of that list. So thank you both.
    Senator Chambliss. Now, for the business at hand today, I 
would like to welcome Ms. Romero and her family to the Senate 
Agriculture Committee and to congratulate her on her 
nomination. I want to say up front, based on our conversation 
yesterday, Ms. Romero, I know that or understand that the tough 
questions that we ask you are going to be referred to your 
daughter, is that right?
    Ms. Romero. She is definitely going to answer, Senator.
    [Laughter.]
    Senator Chambliss. That was a voluntary effort on the part 
of your children to provide answers to the really tough 
questions.
    You will have a very important job overseeing USDA's Office 
of General Counsel in providing sound legal advice to Secretary 
Vilsack and the many agencies under USDA's purview.
    As you will likely hear today, there are many issues that 
members of this Committee care about that involve 
interpretations of law which directly involve the Office of the 
General Counsel, and I hope that you will listen to this 
Committee's concerns and suggestions closely, and I know you 
will.
    And I will look forward to working with you to ensure that 
programs are implemented as Congress intended and are working 
for America's farmers and ranchers. I think your background, 
legal experience and enthusiastic desire to serve in President 
Obama's Administration make you an excellent candidate for 
General Counsel, and I am pleased that you have agreed to serve 
in this position.
    And again I thank Chairman Lincoln for having this hearing 
and we look forward to moving your confirmation through the 
Senate as a whole.
    Ms. Romero. Thank you, sir.
    Chairman Lincoln. Thank you. We would like to swear you in. 
Before I do that, I would love to give you the opportunity to 
just introduce your husband and children as well that are with 
us today. I know they are very proud.
    Ms. Romero. My daughter Emilia, who is almost nine. My 
husband Blaise Santianni. And my daughter Adelina. Adelina, can 
you stand up for a minute, who is seven. And I have a host of 
family and friends. I will not take the Committee's time. Thank 
you.
    Chairman Lincoln. We want to welcome all of your family and 
friends and certainly your husband and two daughters. We are 
glad that they are here.
    If you would please rise and raise your right hand.
    Do you swear that the testimony you are about to present is 
the truth, the whole truth, and nothing but the truth?
    Ms. Romero. I do.
    Chairman Lincoln. Secondly, do you agree that if confirmed, 
you will appear before any duly constituted Committee of 
Congress if asked?
    Ms. Romero. I do.
    Chairman Lincoln. Thank you. Please proceed with your 
testimony.

   TESTIMONY OF RAMONA EMILIA ROMERO, OF PENNSYLVANIA, TO BE 
     GENERAL COUNSEL OF THE U.S. DEPARTMENT OF AGRICULTURE

    Ms. Romero. Good morning. First of all, I would like to 
thank Senator Casey, even though he is not here, for his kind 
words of introduction.
    Greetings, Madam Chair, Ranking Member Chambliss, Senator 
Roberts, and other distinguished members of the Committee.
    I acknowledge the many priorities facing this body and 
thank you for your willingness to hold this hearing. It is an 
understatement to say that it is an honor and a privilege to 
appear before you as President Obama's nominee to serve as 
General Counsel of USDA. I am humbled by the trust that the 
nomination represents and thank the President and Secretary 
Vilsack for giving me this opportunity.
    Should I have the privilege of being confirmed, I look 
forward to paying through public service a small portion of the 
debt that I owe our great country for the benefits it has 
afforded me.
    Much is required of those to whom much is given and I have 
been given much. First, I have been blessed with a wonderful 
family and many loving friends. As you know, my husband and my 
two daughters are here with me. I want to thank them publicly 
for their constant support and their encouragement, and for 
their willingness to sacrifice so that I can pursue my dream of 
public service. Also with me here are several other family 
members and many friends.
    Constructing a life, Senator, and a career is a team effort 
and I have many members of my team, some of whom are here. I am 
very grateful for that.
    While she is not able to join us here today, I want to 
acknowledge and thank my mother, Glada Romero. In the late 
1960s she left me in the Dominican Republic and moved to New 
York City in search of a better life for us. I joined her four 
years later. My mother's decision altered the course of my 
life. By making available to me the many opportunities our 
Nation offers even the most humble of its citizens.
    I am forever grateful for her courage. Thanks to her, a 
very humble factory worker in the New York garment district, by 
the time I reached Barnard and Harvard, I had internalized the 
value of hard work, honesty, courage, perseverance, and 
service. The lessons that I learned from my mother are ones 
that I try to live by every day and which Blaise and I pray 
that Adelina and Emilia will learn and internalize as well.
    By now, you might be wondering why a Dominican American 
raised in New York City wants to serve as General Counsel of 
the Department of Agriculture. The answer is simple. I love to 
serve others. I love the law, and I love finding solutions to 
challenging legal problems.
    If confirmed, serving as USDA General Counsel will allow me 
to do what I love. It will also enabled me to contribute to the 
American people the skills and experience that I have acquired 
over two decades as a practicing lawyer responsible for a broad 
variety of complex litigation and commercial transactions, 
first at a large law firm here in
    Washington, DC, and later at DuPont's well respected legal 
department.
    Serving American farmers, ranchers, and rural communities 
appeals to me. Not only because they are essential contributors 
to our Nation's economy and well- being but also among the most 
challenged members of society.
    As Secretary Vilsack noted during a recent television 
appearance, 90 percent of our Nation's farmers are barely 
making ends meet. I want to assure you that, if confirmed, I 
will approach my duties with an appreciation for the challenges 
facing our country's farmers and ranchers, rural communities, 
and agri-business.
    As a lawyer who loves what she does, I cannot think of a 
more exciting place to work than USDA precisely because of the 
diversity of its mission and the legal challenges that it 
creates.
    Finally, should you honor me by recommending me and should 
the Senate confirmed me, I will do everything within my power 
to execute the duties of General Counsel with the highest, the 
highest level of integrity and skill so as to earn your 
continuing support and trust.
    I am committed to working with the leadership at USDA in 
collaboration with Congress to further the best interest of all 
Americans who, to varying degrees, are affected by every 
decision the USDA makes.
    Thank you, Madam Chair. I look forward to addressing your 
questions.
    [The prepared statement of Ms. Romero can be found on page 
21 in the appendix.]
    Chairman Lincoln. Thank you, Ms. Romero.
    I think the three of us here can guarantee you challenging 
legal questions from USDA as well as what we do here. We can 
also guarantee you diversity in terms of the multiple, multiple 
farmers, ranchers, and hard-working farm families across this 
country from the South to the Midwest, to the East and West 
Coasts, all of which do things in a different way, and we look 
forward to asking questions and certainly getting a perspective 
from you.
    I will just start with one and I know my colleagues may 
follow up on some of this. But producers and industry groups 
alike have really expressed reservations to this Committee 
regarding proposed GIPSA regulations pertaining to undue 
preference on beef prices.
    During the debate in the 2008 farm bill, the Senate voted 
down the Senate Amendment 3666, which was Senator Tester's 
amendment which would have restricted packers from utilizing 
commonly employed pricing mechanisms.
    In the opinion of many of our constituents, the proposed 
rules were very similar to what the Tester amendment was 
attempting to do, prohibit producers from being rewarded for 
high quality cattle which they produce.
    In your opinion, do you believe the proposed GIPSA 
regulations go beyond the authority of GIPSA's enabling 
legislation and fail to consider the Senate floor vote on 
Senate Amendment 3666 and how, as General Counsel, will you 
work to guarantee that the rules and the regulations 
promulgated by USDA truly do comply with what our congressional 
intent has been?
    Ms. Romero. Senator, I am familiar with the issue, and I am 
familiar with the concerns that have been raised about the 
rule. As I am sure you appreciate, given the fact that I am not 
at USDA, I am not a USDA employee, and I am not familiar with 
all of the details relating to the rule, prejudging it is not 
something, it is probably presumptuous and not sufficiently 
cautious.
    I can assure you about this. I understand that the rule has 
been published. I have read it. I understand that the rule is 
been submitted to public comment and that many comments have 
come in that are now being considered and that the Secretary 
and the Department are very interested based on a statement 
that I read he made yesterday on ensuring that the rule that is 
finally published is actually consistent, takes those comments 
into account and is consistent with the interests of all 
stakeholders.
    If I have the privilege of being confirmed, I will work to 
ensure that is, in fact, the case. Obviously, as the 
Department's chief lawyer my responsibilities, if I am 
confirmed, would be to ensure that the Department enacts rules 
that are consistent with the mandates of Congress, and I look 
forward to working hard to do that.
    Chairman Lincoln. Great. I think that one of the things 
that we all, as Senators representing the constituents that we 
have and the reason that we talk sometimes forever and ever and 
ever is because we want to make very clear what our intent is, 
and I think that is an important part of what we try to put 
into both the record as well as the encouragement of our 
constituencies to get in their comments during those rule-
making comment periods and other things like that.
    So congressional intent, in my opinion, is something we 
tried very hard to make very clear, and I hope it is a tool 
that can be used particularly by the counsel as they review 
what they would like to get in promulgating those rules. So 
thank you.
    Ms. Romero. Thank you.
    Chairman Lincoln. Senator Chambliss.
    Senator Chambliss. Thanks very much, Madam Chairman.
    A couple of areas that I want to note, Ms. Romero. First, I 
recognize the H2A guest worker program is administered by the 
Department of Labor and the USDA's only official involvement is 
with the National Agricultural Statistics Service's wage survey 
that the Labor Department uses to set the adverse effect wage 
rate.
    However, USDA administers a number of marketing and 
inspection programs that are negatively impacted when farmers 
are not able to harvest their crops on a timely basis. The 
agricultural sector continues to have a lot of problems with 
the guest worker program especially with regard to the timing.
    There seems to be no good way to predict when the 
Department of Labor will act on any particular H2A application 
other than it will most likely be late. Because the need for 
agricultural workers, especially in the fresh fruit and 
vegetable markets, is so critically tied to the timing of 
harvest, a program that does not operate in a timely manner is 
essentially no program at all.
    I would strongly encourage you to use your position as 
General Counsel at USDA to seek an administrative agreement or 
a memorandum of understanding with the Department of Labor with 
respect to the timing of the H2A application approval process.
    This would really help our farmers and producers who need 
the labor during harvest which in turn helps the USDA's 
marketing and inspection programs operate efficiently.
    And this is one of those situations that there apparently 
is no communication between USDA and in this case the 
Department of Labor, and my statement to you is that I would 
just like a commitment from you to ensure that you are going to 
reach out and try to make a real effort to work with the 
Department of Labor on this specific issue as well as other 
agencies on matters that you may not have direct jurisdiction 
over but certainly have a huge impact on farmers and ranchers.
    Ms. Romero. Sir, if I have the privilege of being 
confirmed, you have my absolute commitment that I would reach 
out not only to other administrative agencies that impact the 
fate of farmers and ranchers and the agricultural industry but 
also to you and to the members of the Committee.
    Senator Chambliss. Thank you.
    The Chairman has already mentioned the issue of GIPSA. You 
and I talked briefly about that yesterday. I just want to make 
sure it is pretty high on your radar screen because this is an 
issue that we dealt with in the farm bill.
    We thought we came out with a fairly good resolution and 
now here we are back in not necessarily a crisis mode maybe yet 
but it is a real concerning issue to farmers across America 
right now.
    And I would just urge you to engage early on in a review of 
the current status of GIPSA and the enforcement mechanisms that 
are in place as well as some changes that have been made and 
are being proposed because they are not being favorably 
received.
    And if that is not the case, if things continue the way 
they are going, then farmers are going to get more and more 
unhappy with this.
    So my comment to you there is just to engage in this early, 
review the process, and engage this Committee as well
    as the House Committee on Agriculture with respect to 
potential solutions for GIPSA.
    There is one specific issue relative to GIPSA, though, that 
I do want to call to your attention and asked for your review. 
Several critics of the proposed rules have focused on the GIPSA 
administrator.
    As you may or may not know, the current administrator is a 
trial lawyer. Before running GIPSA, he litigated cases 
involving the Packers and Stockyards Act.
    Since the current proposal would lower the burden of proof 
that a trial lawyer would have to meet to be successful, a 
number of stakeholders believe this represents a troubling 
conflict of interest.
    Recently the Americans for Tax Reform organization wrote 
Secretary Vilsack calling for Administrator Butler's 
resignation, and the Committee for Responsibility and Ethics in 
Washington wrote asking that Butler at least recuse himself 
from this rule-making process.
    The Acting General Counsel responded to both that USDA does 
not see anything wrong with the current situation. Being a 
lawyer myself, you are well aware of our strong ethics within 
our bar associations; and if there is even a hint of a conflict 
of interest, someone in a judicial position whether it is from 
a State court bench or administrative bench ought to recuse 
himself.
    And I would simply ask again that you review the matter 
that has already been reviewed by the current acting counsel 
that you will be replacing just to ensure, and you report
    back to this Committee on the issue of whether or not there 
is reason for this administrator to come under scrutiny and 
maybe recuse himself on certain cases that do raise the 
potential for a conflict of interest.
    Ms. Romero. Thank you, Senator, for bringing the issue to 
my attention. If I have the privilege of being confirmed, I 
will conduct such a review.
    Senator Chambliss. Thank you very much.
    Thanks, Madam Chairman.
    Chairman Lincoln. Senator Roberts.
    Senator Roberts. Senator Lincoln, we are going to miss you 
and I hope you come back often.
    Chairman Lincoln. Will you put a little chair in the 
corner?
    Senator Roberts. No. It will be a big chair.
    [Laughter.]
    Senator Roberts. Whatever size chair you want and within 
the Ag Committee. I will give you my proxy about half the time. 
Maybe we could name the child nutrition bill the Lincoln child 
nutrition bill. We might want to think about that, Senator 
Chambliss, on the floor.
    But anyway I would just observe that in the Senate today 
the threads of comedy and respect are worn pretty thin, and I 
know that is because of the tough issues we face and the 
differences of opinion.
    The exception to that rule is Blanche Lincoln in that she 
always was willing to reach across the aisle, never 
compromising her principles but trying to get something done. I 
think that is what the American people want.
    And the Agriculture Committee is different from other 
Committees. We have always been that way. We either hang 
together or we hang separately.
    In any case I want to thank you for all the contributions 
you have made, not only the legislation and not only the work 
that you have done but I cannot at anytime in any meeting, 
whether it be Finance or Agriculture or some other meeting, any 
meeting that you have not entered the room without a smile on 
your face and brightened the atmosphere.
    I am a 50s kid. Eisenhower had that great ability with his 
grin. You have an Eisenhower grin and a wonderful smile, and 
the thought of pure partisanship just never quite entered your 
head.
    So thank you just for being you, and I am going to look 
forward to your picture right up there or maybe we can move 
Herman down there.
    [Laughter.]
    Senator Roberts. With all due respect to Senator Talmadge.
    Ms. Romero, thank you so much for coming and thank you for 
giving us the privilege of meeting your fine family, your 
lovely family. Your two daughters now know where Kansas is. 
They were looking at the almanac. It sits right in the middle. 
We like to think we are in the heartland.
    Of course, I know Senator Chambliss thinks that is the case 
for Georgia, and obviously the Chairman for Arkansas, which is 
really ``Ar'' Kansas by the way but we will not get into that.
    [Laughter.]
    Senator Roberts. You have an only-in-America story. It is 
quite impressive. It makes you stop and think a minute. It is 
one of those battery charges that we hear about every once in a 
while. So thank you for sharing that with us.
    You are going to be confirmed. Thank you for your statement 
that you are going to be a champion for the farmers and 
ranchers. And I will say that we face very serious times in 
this country and we have all heard about the debt commission 
and all of the recommendations on entitlement programs and then 
people say, well, where else to cut and the first thing is 
agriculture.
    Most of these people can spell agriculture but they have 
never been on a farm and they just do not understand the value 
of some of the programs that we do have and we will do our 
part. We have always done our part but we are not going to do 
more than our fair share and I hope you share that view and 
thank you for stating you will be a champion for the farmer and 
rancher.
    I share the comments made by our distinguished Ranking 
Member and our Chairman on GIPSA. We write legislation here and 
work very hard to produce a farm bill or any other bill, and 
then all of a sudden it goes to some federal agency, and it has 
happened in many administrations, and whatever pops out of the 
woodwork in the Federal Register does not resemble the intent 
that we think would be the case. And that is a continued sort 
of arm-wrestling contest.
    But on GIPSA we really have strong feelings about that and 
I am glad that the Ranking Member, Senator Chambliss, brought 
up the situation with Mr. Butler. He ought to recuse himself, 
and I feel very strongly about that. With your background, I 
think you can take a hard look at that.
    I have one question. Many here in this Committee, members 
on both sides of the aisle, have requested what I call the 
alphabet soup of federal agencies work together and actually 
talk to one another.
    What role will you and the Department of Agriculture play 
in fighting, and I put in ``fighting'', on behalf of all of 
agriculture against the laundry list of regulations and ideas 
that could put farmers and ranchers out of business?
    We do not have a baseline. We do not have money. And in 
talking to other members on the Committee, we are scratching 
our heads thinking how on earth do you write a farm bill with 
no money.
    That happened once before some years ago and I had that 
challenge in the other body. It is tough. But one of the things 
we can do is relieve farmers from over regulation and 
regulatory costs that do not meet sound science standards.
    They may meet standards in terms of ideology or where 
people want to go or this or that or the other, you know, 
people's personal opinion. But they do not make sense in farm 
country. So if we could do regulatory reform, it would be a 
wonderful thing.
    For example, changing the scope of the Clean Water Act. 
Right now we have a navigable water situation where farm ponds 
are considered navigable water. No self-respecting duck would 
ever even land there.
    We have rural fugitive dust. I emphasize ``fugitive''. That 
is going to be a TV series, rural fugitive dust. It was in the 
'70s and now it is back again.
    OSHA standards, spray drift, animal antibiotics, just to 
name a few.
    Will you please help us and be a strong advocate for sound 
science on these regulations, on the costs, on the benefit? 
That has to match up, and I think that would do more for the 
farmer and rancher today than perhaps more billions of dollars 
in the farm program.
    So I will leave it at that. And if you would like to make a 
comment, why, I would appreciate it.
    Ms. Romero. Thank you, sir, for brining the issue to my 
attention. Senator Chambliss also raised that issue 
specifically in the context of the intersection between EPA and 
the USDA.
    Obviously not having been confronted and not having 
sufficient access to USDA officials and not really being privy 
to all the details relating to these issues, I cannot take a 
firm position on some of these questions but I will talk with 
anybody.
    Senator Roberts. You have your phone numbers and you know 
the first names. You might want to meet weekly and say, you 
know, this does not make any sense.
    Ms. Romero. I am a great believer in corroborating. I am 
also a great believer in understanding and ensuring the people 
talk with one another and understand the issues and the 
perspectives of every side of the room.
    So that I can promise you this, if I have the privilege of 
being confirmed, I will be an advocate or at a minimum ensure 
that the other agencies that also regulate farmers understand 
the position of the USDA.
    Senator Roberts. Thank you, ma'am.
    Ms. Romero. You are welcome, sir.
    Chairman Lincoln. Thank you, Senator Roberts.
    Just one last comment I would like to make in terms of 
biotech approvals, Ms. Romero. The Obama Administration has 
repeatedly stated its commitment to applying sound science to 
regulatory decisions. The Administration is also committed to 
achieving and maintaining global food security.
    You mentioned the idea of the livelihood of farmers and 
ranchers across the country. I have consistently said that 
farmers and ranchers across this country need make no apologies 
in terms of this Committee because we want to work there on 
their behalf.
    So taking into consideration the livelihood of farmers and 
ranchers, and also the hunger that exists worldwide, it is 
unfortunate it now takes USDA over three years to deregulate 
and authorize agricultural biotechnology projects. Setting 
aside the pending lawsuits against USDA challenging the 
Department's compliance with NEPA, I do remain concerned that 
the biotech regulatory process is too slow.
    So I just simply want to put that before you. I am 
concerned that undue delays unnecessarily impede bringing new 
products to market to help American farmers stay competitive in 
the global marketplace.
    As we know coming out of this economic crisis we are in, we 
want to make sure of our farmers and ranchers are competitive 
globally. I am told that many of these delays may be avoided by 
streamlining regulatory clearance process at OGC. So I hope 
that you will take a look at that.
    I do not know what your views are about ways that we can 
streamline the regulatory process there to get the safe 
agricultural biotech products to market faster, but I hope that 
you will take a look at that. I am sure that as you do, you 
would look at ways that you can figure out we can streamline 
what goes on there at OGC and hopefully minimize a three-year 
process that it has been taking us to increase our competitive 
nature for our farmers and ranchers.
    Ms. Romero. Thank you for bringing the issue to my 
attention, ma'am.
    Chairman Lincoln. You bet. We thank you.
    Senator Roberts. Madam Chairman, I have five other 
questions. I am not going to bring them up now but I would like 
to submit that for the record.
    Chairman Lincoln. Absolutely. I did want to make sure that 
everyone knows that the record will be left open for three days 
in order to be able to ensure that all members of the Committee 
can submit their questions in writing to get a written response 
from you, Ms. Romero, and I appreciate that and want to 
congratulate you on your nomination again.
    So any questions for the record, members will have three 
days to be able to do that and submit those to the clerk as 
soon as possible, we hope, as people will be anxious to wrap 
things up, and we appreciate that.
    Again thank your family for being here. I know certainly as 
a mother and as a daughter and a wife and all of those things, 
it is critically important to have your team together. So we 
are proud that they are here with us today as well.
    I want to say a very special thanks to these two gentlemen 
that are here. I have served with them for a long time in both 
the House and the Senate. They have been dear friends and great 
members of this Committee.
    I am very proud to be leaving it in your hands and I am 
grateful to both of you all for your friendship. It has been an 
honor and a privilege for me to serve the great people of 
Arkansas and the certainly in this Committee.
    I think both of these gentlemen know how much I love 
agriculture, and they know my passion for this Committee. So it 
has been a joy to be here and to serve on this Committee for 
many years and to be able to have a great opportunity to talk 
with both of you all.
    I would like to take just a point of personal privilege and 
say a tremendous thanks to the staff here at the Committee and 
the staff of all the members who have always been wonderful to 
work with.
    Our time here as Chairman of the Committee has been a great 
one working with not only the Ranking Member but all of the 
staffs have been just tremendous. They have been wonderful to 
work with.
    You will find as you work with them, as well as the 
members, that this is a great Committee to do business with. 
Everybody works hard. We play hard. We work hard at getting 
along and really getting things done for what is really at 
heart, and that is the American people.
    So we are grateful and I am very grateful to everybody from 
the Committee. So thank you all for participating particularly 
in my last hearing here to have these two fine gentlemen with 
me. I could not have asked for two better, and I am grateful 
for that.
    With that, the Senate Agriculture Committee stands 
adjourned.
    [Whereupon, at 11:18 a.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            December 9, 2010



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                            December 9, 2010
      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

                         QUESTIONS AND ANSWERS

                            December 9, 2010
      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
